WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-7464

‘Stephen D. Long Ohio
(Petitioner) NG (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Jam filing this waiver on behalf of all respondents.

oO Ionly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Iam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, W; shington, D.C. 20543).

   

Signature: OF _ak
Dawe aan
(Type or print) Name David Thomas Harold

© mr. Ou O Ms oO Miss

Firm Wood County Prosecutor's Office

Address lone Courthouse Square : i |
City & State Bowling Green, Ohio / Zip 43402 2 |
Phone 419-354-9250 | Email dharold@woodcountyohio.gov a

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

[Stephen D. Long @ North Central Correctional Institution ‘i
ce: |
